Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Audit of Palmetto Government Benefits Administrators' Railroad Retirement Board Final Administrative Cost Proposals for Fiscal Years 2002 Through 2006
August 20, 2008 | Audit A-04-07-04019
Executive Summary
Palmetto Government Benefits Administrators (Palmetto) reported expenditures in its Final Administrative Cost Proposals that substantially complied with the Federal Acquisition Regulation and Medicare contract provisions for fiscal years 2002 through 2006.  However, we recommended that Palmetto refund to the Federal Government $400 of unallowable costs that it was unable to support with adequate documentation.  Palmetto agreed with our recommendation.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS